No. ___________

IN THE SUPREME COURT OF THE UNITED STATES

Lamont Owens – Petitioner,
v.
United States of America – Respondent.

Motion for Leave to Proceed in Forma Pauperis

Pursuant to Rule 30 of the Rules of this Court, the Petitioner, Lamont
Owens, asks leave to file the attached Petition for Writ of Certiorari, without
prepayment of costs, and to proceed in forma pauperis.
The petitioner was represented by undersigned counsel appointed pursuant
to Title 18, United States Code §3006(a) (the Criminal Justice Act) both in the
district court and on appeal to the Eighth Circuit Court of Appeals. Petitioner is
incarcerated in the Federal Bureau of Prisons and remains indigent.
Respectfully submitted,

/s/ David J. Guastello
David J. Guastello #57924
The Guastello Law Firm, LLC
811 Grand Blvd., Suite 101
Kansas City, MO 64106
Telephone: 816-753-7171
ATTORNEY FOR PETITIONER

